F1

m v710|,
IN THE

FILED
FEB 1 3 2020

SUPREME COURT OF THE UNITED STATES

OFFICE OF THE CLERK
<ai

KEITH O. JOHNSON
(Your Name)
Vs.
STATE OF FLORIDA

ippcmc

rr>' ‘try <j

- PETITIONER

-RESPONDENT(S)

ON PETITION FOR WRIT OF CERTIORARI TO
FIRST DISTRICT COURT OF APPEAL. STATE OF FLORIDA
(NAME OF COURT THAT LAST RULED ON MERITS OF YOUR CASE)
PETITION FOR WRIT OF CERTIORARI
KEITH O. JOHNSON DOC NO: 583744
(Your Name)
LIBERTY CORRECTIONAL INSTITUTION
(Address)
11064 N.W, DEMPSEY BARRON RD.
(City, State, Zip Code)
BRISTOL. FLORIDA 32321

OUESTION(S) PRESENTED
CAN, a Defendant pursuant to Florida Rules of Criminal Procedure § 3.210
be proceeded against in a criminal proceeding where a question of Defendant’s
competency has been raised by Counsel and recognized by the Court, where the
Court ordered an expert to evaluate Defendant, yet no hearing for legally
establishing Defendant’s competency had been held by the Trial Court. Creating a
fundamental error in the proceedings resulting in a Manifest Injustice in violation of
the Due Process Clause of the Fifth and Fourteenth Amendment of the United States
Constitution and Article One, Section Nine of the Florida Constitution. Where a
Defendant has a procedural Due Process right to observance of procedures adequate
to protect his right not to be tried or convicted while incompetent.

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page.
K] All parties do not appear in the caption of the case on the cover page. A list of
all parties to the proceeding in the court whose judgment is subject of this petition is
as follows:
• Ashley Moody, Attorney General, PL-01 The Capitol, Tallahassee, FI 32399
• Judge Charles E. Francis, Second Judicial Circuit, Leon County Courthouse,
301 S. Monroe St, Tallahassee, FI 32399
• Richard A. Greenberg, Defense Attorney, 101 N. Monroe St., Suite 120
(32301), P.O. Box 10507, Tallahassee, FI 32303
• First District Court of Appeals, 2000 Drayton Drive, Tallahassee, FI 32399
RELATED CASES

TABLE OF CONTENTS
OPINIONS BELOW

1

JURISDICTION

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

3

STATEMENT OF THE CASE

6

REASONS FOR GRANTING PETITION

10

CONCLUSION

14
INDEX TO APPENDICES

APPENDIX A: Decision of the First District Court of Appeal State of Florida and
Mandate 2 of 2 pgs.
APPENDIX B: Judgment of Second Judicial Circuit. Leon County, Florida
APPENDIX C:
APPENDIX D:
APPENDIX E:
APPENDIX F:

TABLE OF AUTHORITIES CITED
CASES:
A.L.Y v. State. (Fla. 2017)

Pg. NO.(s)
10

Saunders v. State. (Fla. 2018)

11

Daugherty v. State. (Fla. 2014)

11

Shakes v. State. (Fla. 2016)

11

Bishop v. State. (Fla. 1956)

12

Williams v. State. (Fla. 1998)

12

Losado v. State. (Fla. 2018)

12

Pate v. Robinson. (U.S. 1966)

12

Tingle v. State. (Fla. 1988)

12

U.S. v. Miranda. (U.S. 1971)

12

Catalano v. U.S.. (1962)

12

Baker v. State. (Fla. 2017)

13

STATUTES AND RULES:
Florida Rules of Criminal Procedure § 3.210(a)
Florida Rules of Criminal Procedure § 3.210(b)
CONSTITUTIONAL AMENDMENTS:
Fifth Amendment U.S. Constitution
Sixth Amendment U.S. Constitution
Fourteenth Amendment U.S. Constitution
Article One, Section Nine Florida Constitution

4
5

3
3
4
4

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a Writ of Certiorari issue to review the judgment
below.
OPINIONS BELOW
[NA] For cases from federal courts:
The opinion of the United States court of appeals appears at Appendix
to the petition and is
[ ] reported at
or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ ] reported at
or,
’ ] has been designated for publication but is not yet reported; or,
'] is unpublished.
[ S] For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix A
to the petition and is
[ ] reported at
J.°r,
/] has been designated for publication but is not yet reported; or,
' ] is unpublished.
' reported at
; or,
’ has been designated for publication but is not yet reported; or,
i ] is unpublished.

1

.JURISDICTION
[ NA ] For cases from federal courts:
The date on which the United States Court of Appeals decided my case was
[ ] No petition for rehearing was timely filed in my case.
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: and a copy of the order denying rehearing
appears at Appendix____________ .
[ ] An extension of time to file the petition for a writ of certiorari was
(date) on___________ (date) in
granted to and including
Application No._____ A
The jurisdiction of this Court is invoked under 28 U.S.C. §1254(1).
[ NA ] For cases from state courts:
The date on which the highest state court decided my case was December 9.
2019. A copy of that decision appears at Appendix A .
[ ] A timely petition for rehearing was denied by the United States Court of
Appeals on the following date: and a copy of the order denying rehearing
appears at Appendix____________ .
[ ] An extension of time to file the petition for a writ of certiorari was
(date) on_______________ _.(date)
granted to and including
A
in Application No.____
The jurisdiction of this Court is invoked under 28 U.S.C. §1257(a).

2

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
UNITED STATES CONSTITUTION:
ARTICLE V
No person shall be held to answer for a capital or otherwise infamous crime,
unless on a presentment or indictment of a Grand Jury, except in cases arising in
the land or naval Forces, or in the Militia, when in actual service in time of war or
public danger; nor shall nay person be subject of the same offense to be put in
jeopardy of life or limb;" nor shall be compelled in any criminal case to be a witness
against himself, Nor be deprived of life, liberty or property, without due process of
law: Nor shall private property be taken for public use, without just Compensation;
ARTICLE VI
In all criminal prosecutions, the accused shall enjoy the right to a speedy and
public trial, by an impartial Jury of the State and district wherein the crime shall
have been committed, which district shall have been previously ascertained by law,
and to be of the nature and cause of the accusation; to be confronted with the
6

witnesses against him; to have compulsory process for obtaining witness in his
favor, and to have the assistance of counsel for his defense.

3

ARTICLE XIV
SECTION (1)
All persons bom or naturalized in the United State, and subject to the
jurisdiction thereof are citizens of the United States and of the State wherein they
reside. No State shall make or enforce any law which shall abridge the privileges
or immunities of citizens of the United State; nor shall any State deprive any
person of life, liberty, or property, without due process of law: nor deny any person
within its jurisdiction the equal protection of the law.
CONSTITUTION OF THE STATE OF FLORIDA
ARTICLE I. SECTION (9)
Due Process:
No person shall bv deprived of life, liberty or property without due process
of law, or to be twice put in jeopardy or the same offense, or be compelled in any
criminal matter to be a witness against oneself.
FLORIDA RULES OF CRIMINAL PROCEDURE
RULE 3.210(a)
Proceedings Barred during Incompetence:
A person accused of an offense or a violation of probation or community
control who is mentally incompetent to proceed at any material stage of a criminal
proceeding shall not be proceeded against while incompetent.

4

(1) A “material stage of a criminal proceeding” shall include two trial case,
pre-trial hearings involving questions of fact on which the Defendant might be
expected to testify, entry of a plea, violation of probation or violation of
community control proceedings, sentencing hearings on issues regarding a
Defendant’s failure to comply with court orders on conditions, other matters where
the mental competence of the Defendant is necessary for a just resolution of the
issues being considered. The terms “competent,” “competence,” “incompetent,”
and “incompetence,” as used in rules 3.210-3.219, shall refer to mental competence
or incompetence to proceed at a material stage of a criminal proceeding.
RULE 3.210(b)
MOTION FOR EXAMINATION:
If at any material stage of criminal proceeding, the court of its own motion,
or on motion of counsel for the Defendant or for the state, has reasonable ground to
believe that the Defendant is not mentally competent to proceed, the court shall
immediately enter its order setting a time for a hearing to determine the
Defendant’s mental condition, which shall be held no later than 20 days after the
date of the filing of the motion, and may order the Defendant to be examined by no
more than 3 experts, as needed, prior to the date of the hearing. Attorneys for the
State and the Defendant may be present at any examination ordered by the Court.

5

STATEMENT OF THE CASE
Second Judicial Circuit Court, Leon County, Florida, Case No: 99-4638AF
A. THE PROCEEDINGS BELOW:
(I) December 13,1999 Office of the State Attorney for Leon County, Florida
filed an eight count felony Information charging the Defendant therein:
4 Counts, Fla. Statute 794.011 (3)
1 Count, Fla. Statute 787.01 (3)
1 Count, Fla. Statute 810.02 (2)(b)
1 Count, Fla. Statute 782.04 (1)
1 Count, Fla. Statute 794.011 (2)(A)
(II) On or about June 30,2000, Court-appointed defense counsel, Richard A.
Greenberg filed an unopposed motion for Appointment of Expert to evaluate the
Defendant.
(III) On or about July 5,2000, Judge Charles E. Francis entered an Order to
appoint expert Dr. Terrance Leland, Ph.D. to evaluate the Defendant.
(IV) On or about August 24,2000, Judge Charles E. Francis entered an order
granting a “Motion to Certify Defendant’s Case as Extraordinary and Unusual.
(V) On or about November 1, 2000, Defendant withdrew his plea of not guilty and
upon the advice of Counsel entered a plea of guilty as charged in open court.
(VI) On Oct. 26, 2018, Defendant filed a Post-conviction Relief motion 3.850(m)
in the Second Judicial Circuit, Leon County Florida.

6

(VII) On Dec. 27,2018, the Second Judicial Circuit Court denied the Oct. 26,2018
Post-conviction motion for Relief, Per Curiam.
(VIII) O April 4, 2019, Defendant file a motion for an extension time to file an
Appeal, to the First District Court of Appeal, Fla. Case No. 1D19-0182. L.T. 994638 AF.
(IX) On May 1, 2019, an extension of time was granted by the First District Court
of Appeal Case no. 1D19-0182.
(X) On July 8,2019, An Initial Brief of Appeal form the Circuit Court of the
Second Judicial Circuit, Leon County, Fla. was filed with the First District Court
Appeal, Case No. 1D19-0182. L.T. 99-4638 AF.
(XI) On Dec. 9, 2019, Fist District Court of Appeal denied, Per Curiam the July 8,
2019 Post-conviction Motion of Appeal. Case No. 1D19-0182.
Mandate filed on Jan. 6, 2020.
Defendant, Keith O. Johnson, stipulates to the following:
On December 13, 1999, the Office of the State Attorney for Leo County filed
an eight Count Information against Defendant Keith O. Johnson in the Second
Judicial Circuit in and for Leon County, Fla. felony division, Case No.: 99-4638
AF.
On June 30, 2000 Court appointed defense counsel, Richard A. Greenberg
file an unopposed motion for appointment of an expert to evaluate the Defendant

7

due to his bizarre actions. On July 5,2000, Judge Charles E. Francis entered an
order appointing expert Dr. Terrance Leland, Ph.D. to evaluate the Defendant On
August 24, 2000 Judge Charles Francis entered an order granting a “Motion to
Certify” Defendant’s case as “Extraordinary and Unusual.” No hearing nor
independent assessment was ever made a matter of record in the competency of the
Defendant to stand trial.
On November 1, 2000, Defendant withdrew his original plea of not guilty
and upon the advice of counsel entered a plea of guilty as charged on all counts
before the Court. The Court adjudicated the Defendant guilty on all counts and
sentenced him to life in prison on counts 1 through 4 and lengthy prison sentences
on the remaining counts.
Defendant filed pro se, a post-conviction motion for relief on, October 26,
2018 in the Second Judicial circuit in Leon County, Fla. which was denied, per
2.

curiam on December 27,2018. Defendant then filed a timely notice of Appeal to
the First District Court of Appeal of Florida, Case No.: 1D19-0812. On April 4,
2019, Defendant filed Motion for an extension of time which was granted on May
1,2019.
On July 8, 2019, Defendant filed an Initial Brief with the First District court
of Appeal of Fla. Case No.: 1D19-0182, L.T. 9904638AF. On December 9, 2019

8

the First District court of Appeal denied, per curiam, the July 8, 2019 Motion. The
Mandate was filed on January 6,2020. Opinion not yet published.

9

REASONS FOR GRANTING PETITION
The Supreme Court should assume discretionary jurisdiction of the instant
Petition due to the importance to the public of the question of whether a Manifest
Injustice occurred due to Fundamental Error when the Trial Court of the Second
Judicial Circuit of Leon County, Florida accepted a Defendant’s plea of guilty.
Where a foundation for incompetency of the Defendant had been established on
motion of defense counsel, Attorney Richard Greenberg, for an evaluation for
Defendant, Keith O. Johnson, for competency filed June 30, 2000, due to
Defendant’s bizarre actions. The Court had ordered an examination of the
Defendant by expert Dr Terrance Leland Ph.D., July 5, 2000. However the Court,
Judge Charles E. Francis, presiding, failed to hold hearing pursuant to Fla. Rules of
Criminal Procedure, Fla. Statute §3.210 (a) to determine if the Defendant was
competent to enter a plea at the time of the proceeding.
The issue of “whether the Circuit Court fundamentally erred in failing to
hold a competency hearing presents a pure question of law, Subject to de novo
review.” See A.L.Y v. State. 212 So.3d 399,402 (Fla. 4th DCA2017). Here, the
Record supports Defendant’s claim that no competency hearing was held by the
Court. “Because the Trial Court-despite setting in Motion the competency
evaluation of Aquino, neither conducted a competency hearing nor made an
independent competency determination. We conclude the trial court erred in

10

entering the March 29, 2018 probation revocation order.” Saunders. State. 242
So.3d 1149,1151 (Fla. 2018). A stipulation by the party, counsel or judge is not
sufficient by itself for a valid determination of competency. Indeed, the parties
cannot stipulate to a Defendant’s competency, as it is a “legal” determination for a
trial court to make [after] consideration of the expert’s testimony or the reports by
the psychologists.; See Daugherty v. State. 149 So.2d 672 (Fla. 2nd DCA2014);
Shakes v. State. 185 So.2d 679 (Fla. 2nd DCA2016). “Atrial court’s acceptance of
the parties stipulation was insufficient to satisfy the requirements of Rule 3.210
and the principles of Due Process. A motion collaterally attacking a conviction on
the grounds of the Defendant’s competency may not be summarily denied because
the Defendant was represented by counsel. See Bishop v, U.S.. 350 U.S. (1956).
Defense Counsel’s misadvice about the consequences of the type of plea
deal, (open plea of guilty to the Judge), where there was a real possibility of a life
sentence due to the offenses charge, coupled with evidentiary hearing fact that
defense counsel advised the Defendant that it was in his best interest to plead
guilty. Where the then full hearing to decide the Defendant’s competency had not
been held it was an egregious violation of the right guaranteed by the Sixth
Amendment of the United States Constitution, to effective counsel in any criminal
proceeding. A trial attorney’s failure to properly advise a Defendant on theg

j

consequence of a plea which results in an ill-advised pleas of guilty has long been

11

held to constitute a facially sufficient attack upon that conviction. See Williams v.
State. 717 So.2d 1067 (Fla. 2nd DC1988).
In; Lasado v. State. (3016-1758)(Fla. 3rd DCA2018). For a finding of
incompetency at the time of trial, (or any legal proceeding), the Focus must be on
the Defendant’s mental state at the time of the proceedings in question. Noticing
that a due process violation regarding Defendant’s competency generally results in
a New Trial because, a “hearing to determine a Defendant’s competency at the time
he was tried, generally cannot be retroactive.” See Pate v. Robinson. 383 U.S. 375
(1966); Tingle v. State. 536 So.2d 202 (Fla. 1988); Fla. Stat. §3.210(a).
The paramount teaching of the Supreme Court in Townsend v. State, 372
U.S. 293 (1963) is the normal procedure for determining disputed facts is by a full
hearing. Where movant raises detailed and controversial issues of facts, a full
hearing is required. See U.S. v. Miranda. 473 F.2d 1255 (1971)(a 2 NY). Defendant
challenged the Court’s failure to order a mental evaluation at the time of plea/trial.
The Court reversed and remanded for a hearing, holding that the evidence was not
so sufficient to conclusively show that he was entitled to no relief. The Record of a
criminal proceeding must demonstrate conclusively that a Defendant was
competent to stance trial, if a claim of incompetency is to be disposed of without a
hearing. As is Catalano v. U.S.. 298 F.2d 616 (2nd Cir. 1962). “The question
involves what the Defendant understood and is one where his story needs to be

12

heard. Circumstances show it is impossible to conduct a fair hearing without
permitting the Defendant to appear and testify.
The trial court fundamentally erred in failing to conduct a competency
hearing and to make a competency determination once defense counsel moved for
a competency determination and trial court granted the motion and appointed an
expert to examine the Defendant. Fla.R.Crim.P. 3.210(b).
This case is similar to the situations that were addressed in; Saunders v.
State. 242 So.3d 1149 (Fla. 4th DCA2018), as well as; Baker v. State. 221 So.3d
637, (Fla. 4th DCA2017), where the Defendants were proceeded against in a
criminal proceeding after trial courts appointed experts to to evaluate the
Defendant's for competency, but the rial courts did not make an independent
determination regarding the Defendant's competency. Thus if a nunc pro tunc
determination cannot be made of Defendant's competency at the time of trial that is
in accordance with the Due Process rights of the Defendant, Keith O. Johnson's
conviction and sentence should be reversed.

13

CONCLUSION
The petition for a writ of certiorari should be granted.
Respectfully

Date:

14

*

